XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVE., STE 11000
SAN FRANCISCO, CA 94102

Telephone: (415) 510-3919
E-Mail: Samuel.Harbourt@doj.ca.gov

January 19, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

South Bay United Pentecostal Church, et al., v. Newsom, et al. No. 20-746
Request for Extension of Time

Dear Mr. Harris:
On November 24, 2020, petitioners South Bay United Pentecostal Church, et al. (South
Bay), filed the above-captioned petition for a writ of certiorari before judgment, seeking review
of an October 15, 2020 order in which the district court had denied a request for a preliminary
injunction with respect to California’s then-operative public health restrictions on indoor
worship. After the petition was filed, the court of appeals vacated the district court’s October 15
order and remanded to the district court for consideration in light of Roman Catholic Diocese v.
Cuomo, No. 20A87, 592 U.S. __ (Nov. 25, 2020) and other relevant developments. On remand,
the district court issued a reasoned decision denying a preliminary injunction. The court of
appeals is presently considering the appeal of that order on an expedited basis; briefing is
complete and the court of appeals heard oral argument on January 15, 2021.
On January 14, 2021, this Court requested a response to the petition. Pursuant to
Rule 30.4, respondents respectfully request that the time for filing a response to the petition be
extended by thirty days, up to and including Thursday, March 18, 2021.
Undersigned counsel is also the lead counsel in Lange v. California, No. 20-18,
scheduled to be heard during this Court’s February sitting. Undersigned counsel is presently
preparing the State’s reply brief in Lange, due on February 8, and will be presenting oral
argument in the case on February 24. Significant time is required to prepare for that argument.
Undersigned counsel is also counsel of record on behalf of the Attorney General of the State of
California as amicus curiae in Serova v. Sony Entertainment, et al., S260736 (Cal. Supreme
Court). That case involves questions of significant importance for the Attorney General and the
amicus brief is due to be filed on February 12, 2021.
Moreover, the Solicitor General of the State of California supervises and reviews all
submissions to this Court. Among his other responsibilities, he is presently reviewing the merits
brief in Cedar Point Nursery, et al. v. Hassid, No. 20-107 (currently due on February 1);
assisting with preparing the merits brief in the consolidated matters Americans for Prosperity v.
Becerra, No. 19-251 and Thomas More Law Center v. Becerra, No. 19-255 (expected deadline

January 19, 2021
Page 2

of March 24); assisting in argument preparation for Trump v. Sierra Club, 20-138 (which is
scheduled for argument on February 22); and assisting with preparing the reply brief and with
oral argument preparations in Lange.
A 30-day extension would give respondents the time to prepare a response that
respondents believe would be most helpful to the Court.
Sincerely,
s/ Samuel T. Harbourt
SAMUEL T. HARBOURT
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

